SUPREME COURT OF THE UNITED STATES

63)

\
i

c;/S Cl

a

. ■ r i i"

r

&

V■

IN RE:

Terron Gerhard Dizzley

FILED
MJG 3 1 2020
ON PETITION FOR WRIT OF MANDAMUS

Case No.:

PETITION FOR WRIT OF MANDAMUS

Terron Garhard Dizzley
IN PRO SE
# 359480
Broad River Correctional Facility
4460 Broad River Rd.
Columbia, South Carolina

29210

OFFICE OF THE CLERK
quprfmF COURT, U.SL

QUESTION

1.

PRESENTED

Whether the judges ruling that the jury's failure

to reach a unanimus decision was not a failure on the jury's
part, (" That's actually a strong message to the prosecution
that they are unable to meet the burden of proof to the
extent that they can bring back a unanimus verdict."); was
acquittal and the constitutional prohibition of double
jeopardy bars retrial.
2.

Whether the judges decision to declare a mistrial

hung jury after only two (2) hours and fifty (50) minutes
of deliberation, an hour of that time consumed by questions
from the jury and a break, without polling the jury dictated
by a "manifest necessity" or "ends of justice," and violated
petitioner Fifth Amendment Rights to have his trial completed
by a particular tribunal.
3.

Whether trial court in Petitioner's second

trial lack jurisdiction to impose sentence.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Michael Stephan ( Warden )
Bryan Sterling/ SCDC edwniseioner/Director
Alan Wilson/ Attorney General For State of South Carolina
Henry D- McMaster# Governor For The State of South Carolina
_ _ .

-kj.

RELATED CASES
State V. Terron Dizzley, ( First Trial ), 2009-GS-00-778
Georgetown South Carolina, fifteenth Judicial circuit court
of general sessions. Judgement entered August 30, 2012.

State V. Terron Dizzley, ( Second Trial ), 2009-GS-00-778.
Georgetown South Carolina, Fifteenth Judicial circuit court
of general sessions. Judgment Entered April 3, 2014.

v

TABLE

O F

CONTENTS

OPINION BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED .3/4/5
STATEMENT OF THE CASE
REASON FOR GRANTING THE WRIT
CONCLUSION

6—-2 2
22,23,24
25

INDEX TO APPENDICES

APPENDIX - A.

Decision of the Georgetown South Carolina
Court of General Sessions. State V. Terron
Dizzley. 2009-GS-00778 ( 2012 ). Ruling of
the Honorable Judge Michael Baxley.

APPENDIX - B.

Opinion below, For cases from state/federal
cdurts.

Vii

1

TABLE OF AUTHORITIES CITED
PAGES NUMBER

CASE(S)
Beckwith V. Bean/ 98 U.S. 266 (1878)

20

Benton V. Maryland, 395 U.S. 784 (1969)

13

Director General of Railroad V. Kastenbaum, 263
-4

U.S. 25 (1923)

20

#

Dcwnum V. U.S. 372 U.S. 734 (1963)

13

Evans V. Michigan, 568 U.S. 313 (2013)

15

Exparte V. Burford, 3 Cranch 448 (1806)

9

Exparte Hamilton, 3 Dali. 17 (1795). .

9

Exparte Jackson, 96 U.S. 727 (1877)
Exparte Lange, 85 U.S. 163 (1873)

. 10
8, 18,22

Exparte Siebold, 100 U.S. 371 (1879)

8

Exparte U.S. 242 U.S. 27 (1916)

8

Exparte Virginia, 100 U.S. 339 (1879)

22

Fong Foo V. U.S. 369 U.S. 141 (1962)

10, 17

Illinois V. Somerville, 410 U.S. 458 (1973). .

. . 13

Lee V. U.S • / 432 U.S. 23 (1977)

■t

*

9, 22

Exparte Yerger, 75 U.S. 85 (1868). .

Kilborn V. Thompson, 103 U.S. 168 (1880)

f

(

. 20
16

Piaskowski V. Bett, 256 F.3d 687, 694-95 (7th
Cir. 2001)

. 18

Sanabria V. U.S. 437 U.S. 54 (1978)
Smalis V. Pennsylvania, 476 U.S. 140 (1986)

17
7

viii

>

STATUTES AND RULES

PAGE NUMBER

28 U.S.C. 2254

4

28 U.S.C. 1651

5

Federal Rules of Appellate Procedure, Rule 8 (c) • •

23

Rules of Supreme Court of the U.S •

23

f

Rules 20, 21 • •

U.S. Const., Amend. 5

3

U.S. Const. Amend. 8

3

U.S. Const. Amend. 13

3

U.S. Const •

3

t

Amend. 14

OTHER

APPENDIX

B. Opinion below, For cases from federal/
state courts

x

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
See Other
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
© See Other
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.

to

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
See Other
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
The opinion of the _
appears-at Appendix

court
_to the petition and is
See Other

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ *j is unpublished.
1.

to

OPINION I BELOW

For cases from state courts:

There are no opinions published, Due to Petitioner's
Appellate Counsel and the South Carolina Court of Appeals
violation of Petitioner's Sixth Amendment Right to counsel
and Fourteenth Amendment Rights to a direct appeal.
On July 9th 2015, Petitioner's Appellate Counsel sent
a letter to the South Carolina Court of Appeals to withdraw
petitioner's direct appeal without obtaining any of peti­
tioner's legal material without fully investigating
petitioner's case and without filing an Anders Brief.
On July 16, 2015. The South Carolina Court of appeals
granted appellate counsel's request without conducting their
own evaluation of the appeal to determine if counsel's
evaluation of the appeal was sound. Violating Petitioner's
Six Amendment Right to counsel and Fourteenth Amendment Right
to a direct appeal. See Penson V. Ohio, 488 U.S. 75 ( 1988).
This is the reason why there are no opinions published
below; Petitioner has been fighting for over six years to
have his direct appeal as of right reinstated.
For cases from federal courts:
1
APPENDIX - B.

There are no opinion piblished.
Petitioner filed a writ of habeas corpus, 28 U.S.C. 2254
on January 7, 2020 •

I

raising this issue and others. The United

States District Court, filed petitioner's application on
January 13th 2020. Terron Dizzley V. Warden Stephan, C/A No.
8:20-CV-00126-SAL.
On January 27,2020, Petitioner filed objections to Magi­
strate Report and Recomendations. To no avail.
On January 21 2020, Petitioner Amended petition pursuant
to his double jeopardy issue.
0m March 25, 2020, Petitioner Amended petition with
a motion for immediately release or an evidentiary hearing
pursuant to his double jeopardy issue.
On April 13, Petitioner filed a re-newed motion for
immediate release.
On April 28, 2020, Petitioner filed a motion to show
lack of jurisdiction and fraud upon the court.
On May 4, 2020, petitioner filed a motion to amend his
motion to show lack of jurisdiction and fraud upon the court.
On May 4 and 22, 2020, Petitioner filed letters re­
questing to know why none of his motions were being responded
to by the courts.
On June 18, 2020, Petitioner filed a Re—newed motion
for immediate release double jeopardy and motion for issurance
of show cause order.
2

On June 23, 2020, Petitioner filed an amended motion
to his motion for issuance of show cause order.
The Federal Diistrict Court of South Carolina, refuses
to respond to Petitioner's 28 U.S.C. 2254 Writ of Habeas
Corpus application, therefore, there are no opinion in the
federal courts.
Petitioner, contends that throughout the (6) years of
appealing his conviction he has never had a full Rule - 5
discovery or case file including a full transcript of his
first trial transcript containing Judge Baxley's ruling.
Petitioner has requested this information countless
amounts of times through paid counsel, appointed counsel,
and through countless amount of pro se request to no avail.
Recently, Petitioner's mother acquired the missing portions
of his transcripts containing Judge Baxley's ruling and :
petitioner was able to confirm that he was acquitted of the
charges he was falsely incarcerated for and that his second
trial was barred by double jeopardy.
Petitioner contends that after discovery this information
is when he filed his 28 U.S.C. 2254 Writ of Habeas Corpus
application.
3

JURISDICTION
|j ] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
Was
A'ppenHix — B.___ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: N/A______ ' - ’
, and a copy of the
order denying rehearing appears at Appendix N/a
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including m/a
(date) on
(date)
in Application No. N/A A N/A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

P ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix l\

2012

[ ] A timely petition for rehearing was thereafter denied on the following date:
N/A
and a copy of the order denying rehearing
appears at Appendix
A
[ ] An extension of time to file the petition for a writ of certiorari was granted
N/A
to and including
(date) on N/yA
(date)in
Application No.N_ZAA N^A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The following statutory and constitutional provisions
are involved in this case.
U.S. Const. Amend. 5
Nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb.
U.S. Const. Amend. 8
Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted.
U.S. Const. Amend. 13
Section 1. Neither slavery nor involuntary servitude,
except as a punishment for crime whereof the party shall have
been duly convicted, shall exit within the United States,
or any place subject to their jurisdiction.
U.S. Const. Amend 14
All person born or naturalized in the United States,
and subject to the jurisdiction therefore, are citizens of
the United States, and of the State wherein they reside. No
States shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or
property, without due process of the law, nor deny any person
the equal protection of the laws.
3

4 I

28 U.S.C. 2254

(a)

The Supreme Court, a justice thereof, a circuit judge,

or a district court shall entertain an application for a Writ
of Habeas Corpus in behalf of a person in custody pursuant
to the judgment of a state court only on the grounds that
he is in custody in violation of the constitution or laws
or treaties of the United States.
(b)(1), (B) ( ii ) An application for a writ of habeas corpus
on behalf of a person in custody pursuant to the judgment
of a state court shall not be granted unless it appears thatcircumstances exist that render such process inneffective
to protect the rights of the applicant.
(3),(d)(l)(2) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment of
a state court shall not be granted with respect to any claim
that was adjudicated on the merits in state court proceedings
unless the adjudication of the claim—(1) resulted in a
decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as deter­
mined by the Supreme Court of the United States; or (2)
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
in the state court proceeding.
4

28 U.S.C. 1651

(a)

The Supreme Court and all courts established by Act

of Congress may issue all writs necessary or appropriate in
aid of their respective jurisdictions and agreeable to the
usage and principal of law.
(b)

An alternative writ or rule nisi may be issued by

a justice or judge of a court which has jurisdiction.

5

Statement of the Case
Petitioner was "acquitted of the charge of murder in
which he is falsely imprisoned for in 2012 by the Honorable
Judge Michael Baxley in Georgetown South Carolina, Court
of General Sessions. Judge Baxley's ruling was based on "
insufficient evidence "to convict which established the
Petitioner's innocence and lack of criminal culpability that
the prosecution "failed to meet their burden of proof." See
Trial of 2012. Tr. P. 314, L 4-18, specifically L13-18. "
Now What you've told us is that you can't reach a unaimus
decision and I would say to you to that's not a failure on
your part. That's actually a strong message to the prose­
cution that they are unable to meet the burden of proof to
the extent that they can bring back a unanimus verdict."
Petitioner contends that according to clearly estab­
lished Federal laws supported by the

Ue§<. Snsprerae Csmrt

Judge Baxley's ruling was an "acquittal" and retrial was
barred by the double jeopardy clause of the Fifth Amendment
of the United States Constitution.
Petitioner contends that Judge Baxley's ruling was
non appealable, therefore there is no legal justification
6

for his second trial of 2014, there is no legal justification
for petitioners false imprisonment, and the trial court lacked
jurisdiction to impose sentence. U.S. V. Scott, 437 U.S.
82 ( 1978 ). " A judgment of acquittal, whether based on a
jury verdict of not guilty or on a ruling by the court that'
the evidence is insufficient to convict may not be appealed
and terminates the prosecution when a second trial would
. ;y+'s-

be necessitated by a reversal. " U.S. V. Wilson, 420 U.S.
332, 95 S.Ct. 1013 ( 1975 ), " Constitutional protection
against government appeals attaches only where there is a danger
of subjecting the defendant to a second trial for the same
offense. Provision of the criminal appeals Act of 1907 that
government could not have a Writ of error in any case where
there had been a verdict in favor of the defendant was to
ensure that the statute would not conflict with the princi­
pals of the double jeopardy clause." U.S. V, Martin Linen
Supply Co ♦

t

430 U.S. 564 (1977 ); Smalis V. Pennsylvania,

476 U.S. 140 ( 1986 ). See also Memorandums of Law attached
and copy of the Honorable Judge Baxley's ruling.
Although Petitioner's acquittal barred retrial. The
Georgetown County Solicitor's Office illegally tried petiti­
oner for a second time in 2014. These illegal, unconsti­
tutional actions of South Carolina

has been practiced for

years until 2012. State V. Langford, " declaring solicitor
7

control of the criminal docket unconstitutional." Despite
this ruling South Carolina continues to practice these un­
constitutional actions.
As a result, Petitioner has been held " hostage" and
is still being held " hostage " for over (6) years and
counting in violation of his Fifth, Fourteenth, and Eighth
Amendment Rights to be free from " Cruel and Unusual Punish­
ment, 400 S.C. 421 ( 2012 ).

Jurisdiction

Exparte U.S. 242 U.S. 27 ( 1916 ), Mandamus is proper
remedy where federal district court has exceeded its power
by suspending

sentence to imprisonment indefinitely during

good behavior. Expart Lange, 85 U.S. 163 ( 1873 ), it was
ruled, after an examination of authorities, that when a
prisoner shows that he is held under a judgment of a federal
court given without authority of law, this court, by writ
of habeas corpus and certiorari, will look into the record
so far as to ascertain whether that is the fact, and, if
it is found to be so, will discharge him. Mr. Justice Miller
said, in delivering the opinion; Exparte Siebold, 100 U.S.
371 ( 1879 ), The court held that a prisoner could properly
8

raise on habeas corpus the claim that the statue under which
he was convicted violated the federal constitution. If the
prisoner was correct

in his claim, the court noted, then

" the foundation of the whole proceeding " would be affected.
Since "an unconstitutional law is void and is as no
law." a "conviction obtained under it is not merely erroneous,
but is illegal and void." The trial court's authority to
try the petitioners "arose solely upon these laws," so if
the "laws were unconstitutional and void, "the trial court
acquired no jurisdiction of the causes." Exparte Virginia,
100 U.S. 339 ( 1879 ), Held that while a Writ of habeas corpus
can not generally be made to subserve the purposes of a writ
of error, yet when a prisoner is held without any lawful
authority, and by an order which an inferior court of the
United States had no jurisdiction to make, this court will,
in favor of liberty, grant the writ not to review the whole
casa, but to examine the authority of the court below to
act at all. "See also Exparte Hamilton, 3 Dali. 17, this
court awarded a Writ of Habeas Corpus, to review a commitment
under a warrant of a district Judge. In Exparte Burford,
3 Cranch 448, such a writ was awarded to review a commitment
by the circuit court of the District of Columbia, not to
9

review a decision of an inferior court upon a habeas corpus
issued by it. So in Exparte Jackson. 96 U.S. 727, in which
the question of our power to issue the writ was raised, and
the petition only averred that the circuit court had exceeded
its jurisdiction this court considerd the merits of the case,
without regard to the fact that there had been no habeas
corpus in the court below." Fong Foo V. U.S

♦ »

369 U.S. 141(

1962). Mandamus case. The Supreme Court granted certiorari
to consider a question of importance in administration of
of justice in federal court, namely the power of the district
court to direct acquittals during presentation of goverment’s
case.
Petitioner contends that pursuant to these cases this
court is empowered to grant his petition in such a case as
presented. Petitioner contends that the State of South Caro­
lina has acted in willful blindness, and intentionally held
him " hostage " for over six years depriving petitioner of
his liberty, property, and equal protection of the laws.
Although Petitioner was born in the United States thus
a citizen of the United States. According to South Carolina
the Fifth Amendment of the United States Constitution's
double jeopardy clause does not apply to petitioner."Nor
10

shall any person be subject for the same offense to be twice
put in jeopardy of life or limb." According to South Carolina
the Fourteenth Amendment of the United States Constitution
does not apply to Petitioner. " all person born or natura­
lized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States, and of the State
wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law,
nor deny to any person the equal protection of the laws."
According to South Carolina, petitioner must be sub­
jected

to " False Imprisonment," Slavery" with no legal

justification or jurisdiction to impose his unlawful sen­
tence in violation of petitioner's Eighth Amendment Rights,
to be free from " Cruel and Unusual Punishment, and
Thirteenth Amendmend Right. " Neither slavery nor in­
voluntary servitude, except as a punishment for crime
whereof the party shall have been duly convicted, shall
exist within the United States, or any place subject to
their jurisdiction."
11

Double

Jeopardy

Petitioner contends that the Honorable Judge Baxley's
ruling of " acquittal " resulted from an improvidently
granted mistrial hung jury after only two (2) hours and
fifty minutes of deliberations, potions of that time Was
consumed by a lunch break and several question from the
jury and time for answering these questions and that time
accounted for approximately an hour, which left only (1)
hour and (50) minutes for debliberations.
According to clearly established federal law* The
Honorable Judge Baxley's decision to declare a mistrial was
not dictated by a " manifest necessity " or " ends of public
justice," Which violated petitioner's Fifth amendment right
to have his trial completed by a particular tribunal.
Because jeopardy attached when the jury was sworn in. Peti­
tioner contends that his second trial was barred by double
jeopardy. See: Transcript of 2012. trial pages 305, L 21pages 316.
In State V. Prince, 279 S.C. 30 (1983), " The Supreme
Court held that where jury had been deliberating only from
approximately 4:30 in the afternoon until about ten o"clock
12

at night, a portion of that time consumed by evening meals
mistrial was ordered over defendant's objections after jury
request testimony of two witnesses to be read and court
reporter indicated that testimony would take approximately
two hours and ten minutes was not dictated by manifest
necessity or ends of public justice, and therefore retrial
of defendant was barred by double jeopardy. Reversed. Citing
Benton V. maryland, 395 U.S. 784; Wade V. Hunter, 336 U.S.
684; Downum V. U.S, 372 U.S. 734; Illinois V. Somerville,
410 U.S. 458; State V. Bilton, 153 S.E. 269; State V. Raven Craft, 71 S.E. 2d 798; State V. Rowlands. 343 S.C. 454 (2000).
U.S. V. Razmilovic, 507 F. 3d 130 (2007), " this case
at hand calls on us to review such a ruling to determine
whether it was an abuse of discretion for a trial court to
decide that a single note indicating deadlock created, "
" manifest necessity" to declare a mistrial. On the record
before us, we conclude that it was. We therefore hold that
retrial of defendants - appellants Michael DeGennar©
Frank Borghese would violate double jeopardy clause of the
Fifth Amendment. We also must decide whether Borghese con­
sented to the mistrial but then almost immediately changed
his position. We find that'Borghese did not deliberately

13

forego his right to have his guilt determined by his original
tribunal. The Court of Appeals Katzmann, Circuit Judge held
that (1) there was no manifest necessity to declare mistrial
and (2). defendant did not move for or consent to mistrial.
Reversed and Remanded, united States V. Gordy, 526 F. 2d
631, 636-37 ( 5th Cir. 1976 )(finding that record was in­
sufficient to determine that "no verdict could be reached,"
despite statement by foreman that jury was "hung," because
no dialogue " was developed with jurors individually" and
it could not be said with certainty that further deliberations
would have proved futile"). U.S. V. Jorn, 400 U.S. 470
(1971). In finding a lack of manifest necessity, the plurality
stressed that the trial judge gave absolutely " no con­
sideration " to the alterative of a trial continuance, and
indeed, acted so abruptly in discharging the jury " that
the parties were given no opportunity to suggest the alter­
native of a continuance or to object in advance to the
discharge of the jury. The plurality concluded that where,
trial judge simply " made no effort to exercise sound dis—
cretion to assure that there was a manifest necessity for
the sua sponte declaration of a mistrial," "a" reprosecution
would violate the double jeopardy provision of the Fifth
Amendment. After only one hour and fifty minutes, Judge Baxley
with no consideration to any alternative
14

without polling the jury declared a mistrial and from the
trial record the only "sufficient justification" was that,
after evaluating the states, evidence, that it was not a
failure on behalf of the jury. " That's actually a strong
message to the prosecution that they are unable to meet the
burden of proof to the extent that they can bring back a
unanimus verdict." Evans V. Michigan, 568 U.S. 313 (2013),
An acquittal for double jeopardy purposes includes a ruling
by the court that the evidence is insufficient to convict,
a factual finding that necessarily establishes the criminal
culpability, and other rulings which relates to the ultimate
question of guilty or innocence. Labels do not control the
analysis of whether a decision dismissing a criminal case
bars retrial under double jeopardy clause, rather the sub­
stance of the court decision does. The U.S. Supreme Court,
Justice Sotomayor, held that midtrial directed verdict and
and dismissal, based on trial court's erroneous requirement
of an extra element for the charged offense, was "acquittal"
for double jeopardy purposes. Most relevent here, an
" acquittal encompasses any ruling that the prosecution's
proof is insufficient to establish criminal liability for
an offense." U.S. V. Martin Linen Supply Co, 430 U.S. 564
.15

(1977), The U.S. Supreme Court, Mr. Justice Brennan held
that double jeopardy clause barred appeal by U,S. from
judgments of acquittal entered under rule 29(c) following
discharge of jury which had been unable to agree on verdict
in criminal contempt trial. Affirmed. Although statute
authorizes an appeal by the U.S. in criminal case from a
district court " dismissal " rather than "acquittal" the
form of the ruling is not dispositive of appealability in
a statutory sense. Rather, we must determine whether the
ruling of the judge, whatever it's label, actually represent
a resolution, correct or not, of some or all of the factual
elements of the offense charged." Lee V. U.S •I 432 U.S. 23
(1977). " Question as to whether double jeopardy clause
prohibits retrial after the case has been terminated, after
jeopardy has attached, without a finding on the merits does
not depends upon whether the court labels it's action a
dismissal or declaration of " Mistrial " but rather whether
the order contemplates and ends to all prosecution of the
defendant for the

offense charged." Smith V. massachusetts,

543 U.S. 462 (2005), " The U.S. Supreme Court, Justice Scalia,
held that: (1). State trial judge's initial ruling on defen~
dant's motion for finding of not guilty on firearm charge,
in which judge evaluated common wealth's evidence and decided
16

**,

that it was not legally sufficient to sustain conviction
on firearm charge qualified as " judgment of acquittal”
for double jeopardy purposes; and (2) Once state trial
judge had entered midtrial judgment of acquittal on fire
arm count, with no reservation of right to reconsider this
ruling or indication that the ruling was not final, and
once trial had proceeded to introduction of evidence by
defendant, Double Jeopardy Clause barred trial judge from
reconsidering that acquittal after defendant and his code­
fendant had rested. Reversed and Remanded. Sanabria V. U.S •

f

437 U.S. 54 (1978). Fong Foo V. U.S • » 369 U.S. 141 ( 1962
a judge’s entry of an acquittal because he viewed the govern­
ment's initial witnesses as inherently incredible constituted
a bar to further proceeding even though the judge went beyond
the relevant federal rules provision by directing the acqittal
before the prosecution had completed its case — in chief*
U.S. V. Thompson. 690 F. 3d. 977, 996, ( 8th Cir. 2012),
" double jeopardy bar because judge’s initial acquittal at
close of defendant's case was determination that government
had not met burden of proof.” U.S. V. Ogles. 440 F.3d 1095,
1104 ( 9th Cir. 2006 ), " double jeopardy bar to government’s
appeals of bench acquittal because government's evidence
17

insufficient to sustain conviction." U.S. V. Lynch. 162 F.3d
732, 735 (2d Cir. 1998 ), "double jeopardy bar to goverment
appeal of bench acquittal because government failed to prove
facts sufficient to establish element of charge," Piaskowski
V- Bett, 256 F. 3d 687, 694-95 (7th Cir. 2001 ). " double
jeopardy bar to retrial because court's holding that evidence
insufficient acted as " functional equivalent of an acquittal.
U.S. V. Hunt, 212 F. 3d 539, 543-44 ( 10th Cir. 2000
double jeopardy bar

to government appeal of bench acquittal

because government failed to prove facts sufficient to
establish elements of charge."
In 1873, in Exparte Lange. 85 U.S. 163 ( 1873 ), the
court initiated what has been described as a " long process
of expansion of the concept of a lack of jurisdiction. "
Larnsge contended that he had been twice sentenced for same
offense, in violation of the Fifth Amendment's double jeopardy
clause, when he had been re—sentenced to a term of imprison­
ment after having paid the fine originally imposed. Carefully
disclaiming the use of habeas as a writ of error, the Supreme
Court ordered, Lange release from imprisonment because the
lower Court s jurisdiction terminated upon the satisfaction
of the original sentence.
18

False

Imprisonment

Whirl V. Kern, 407 F. 2d 781 ( 1968 ), On November 4,
1962 the indictments pending against whirl were dismissed
by a nolle prosequi on the grounds that the evidence against
whirl was " insufficient to obtain and sustain a conviction."
Despite the dismissal. Whirl languished in jail for almost
nine months after all charges against him were dismissed.
and was not restored to his freedom until July 25, 1963.
The central issue in this case is one of privilege,
not of fact. The tort of false imprisonment is an intentional
tort. It is committed when a man intentionally deprives another
of his liberty without the other's consent and without adequate
legal justification. Failure to know of a court proceeding
terminating all charges against one held in custody is not,
as a matter of law, adequate legal justification for an un­
authorized restraint. Where the law otherwise, Whirls' nine
months could easily be nine years, and those nine years, ninety-nine years, and still as a matter of law no redress would
follow.
The law does not hold the value of a man's freedom in such
low regard."
19

Kilbourn V. Thompson, 103 U.S. 168 ( 1880 )f " A resolution
of the House of Representative finding a citizen guilty of
contempt and warrant of its speaker for his commitment to
prison were not conclusive in an action for false imprisonment
and no justification to the person making the arrest where the
pleading showed that the House was without any authority in
the matter.
Director General of Railroad V. Kastenbaum, 263 U.S. 25
( 1923 ), Wallace V. Kato, 549 U.S. 384 ( 2007 ). Beckwith V.
Bean, 98 U.S. 266 ( 1878 ). In action against army officers
for assault and battery and false imprisonment, defendant's
were not entitled to dismissal on grounds that their act were
done under the authority of orders of the United States during
the Civil War, where there were many disputed facts in the case
disconnected from any question of authority from such orders,
sine proof of oppressive of corrupt abuse of authority would
authorize verdict for plaintiff.
See: Transcript of 2012 Trial Pages - 305, Line - 21,
Pages 316. Honorable Judge Baxley's ruling. After charge by
Honorable Judge Baxley on August 29, 2012.The jury began de­
liberating August 30, 2012, at 9:30 am. See Tr.P. 305, Line21 - Page - 306, Line

1 - 8.
20

During deliberations a note from the jury was received at 10:03
am. Reply from the court was sent back to the jury at 10:21
am . Another note from the jury was received at 11:12 am •

9

and

the the judge gave an Allen charge. See: Tr. P. 308, Line
6, through Page — 313, Lines
from the jury at 12:20 pm •

t

8., Another note was received

1

As a result of this last note in-

dicating that the jury was unable to reach a decision.
The Honorable Judge Baxley, after only two hours and fifty
minutes, with out polling the jury or considering any other
alternatives declare a mistrial, an

<jf tfeat tia® consumed

by question from the jury and a lunch break. See: Tr. P. 313,
Line - 15 through Page - 315, Lines

1 - 10.

Petitioner contends that on several occasions the Honorable
Judge Baxley, stated clearly on several occasions that his de­
cision to declare a mistrial had nothing to do with a failure
on the part of the jury to reach a verdict.
The Honorable Judge stated clearly on several occasions
that his decision to declare a mistrial was based on
" insufficient of evidence " to convict which established the
Petitioner's innocence and lack of criminal culpability that
21

the prosecution " are unable to meet the burden of proof to
the extent that they can bring back a unanimous verdict." See
Tr. P. 313, Lines - 24 through Page - 315, Lines

1 - 10.

Reason Why The Writ Should Be Issue
The United States Supreme Court has held when a prisoner
is held without any lawful authority, and by order which an
inferior court of the United States had no jurisdiction to make
this court will, in favor of liberty, grant the writ not to
review the whole case, but to examine the authority of the court
below to act at all. Exparte Virgina, 100 U.S. 339 ( 1879 )

• 9

and if it is found to be so, will
\ ' discharge him. Exparte Lange,
85 U.S. 163 ( 1873 ), Exparte; Yararr, 75 U.S. 85 ( 1868 ).
Petitioner has supported this writ evidence of the

22

Honorable Judge Baxley's ruling from his trial of 2012, and
clearly established federal law supported by the United States
Supreme Court that he was " acquitted " of the charges he
is falsely imprisoned for.
Petitioner avers that these facts as to the law shows
that his second trial was illegal, unconstitutional, and trial
court lacked jurisdiction to impose sentence.
Petitioner avers that the facts as the law shows that
he is being held "Hosfcsge''

in the South Carolina Department

of Corrections without any legal justification or jurisdictional
authority.
Petitioner avers that these facts as to the law raise
interest so urgently demanding immediate relief that the
judicial system cannot rely upon the ordinary avenue of cor
rection.
Immediate review is deemed necessary to prevent any further
harm to petitioner or days spent falsely incarcerated pursuant
to Petitioner's Eighth Amendment Rights to be free from Cruel
and Unusual Punishment and to be free from subjection to slavery
pursuant to this imprisonment in violation of the Thirteenth
Amendment.
In rare instances involving lengthy delays, Appellate
23

Court should enforce Rule 8 (c)'s Speedy - Trial policy by
means of Mandamus under the all Writ Act, 28 U.S.C. 1651
Because habeas corpus helps assure that the determination
of a prisoner's guilt was " full and fair " delays in pro­
cessing petition that are not justified by a need for adequate
investigation or preparation interfere with the policy un­
derlining the Constitutional guarantee of a speedy trial.
Petitioner is an American citizen of the United States,
and a citizen of South Carolina. The State of South Carolina
abridged, and deprived him of life, liberty property, and
equal protection of laws without any legal justification
or jurisdictional authority.
Petitioner contends that pursuant to this request for
" Writ of Mandamus " he has shown that his right to issuance
of the Writ is " Clear and Indisputable."
Wherefore now, above premises considered, the Petitioner
respectfully moves this Honorable Court to issue a Writ of
Mandamus directing the State of South Carolina to immediately
release petitioner from the South Carolina Department of
Corrections pursuant to Double Jeopardy, False Imprisonment,
and lack of jurisdiction of trial court to impose sentence
pursuant to State V. Terron Dizzley. 2009-GS-00778.
24 \

CONCLUSION

It is respectfully submitted that Writ of Mandamus
is proper remed_y, and Petitioner prays that the relief sought
herein be granted.

Date; August 2*1x.

2020.
Terron Gerhard Dizzley # 359480
B.R.C.I Marion Unit # 169
4460 Broad river Rd.
Columbia, South Carolina-29210

25

